                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                  Evaluation of the Broadcasting Board of

                                  Governors Information Security Program


                                         Report Number AUD/IT/IB-12-15, November 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                          UNCLASSIFIED
                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General


                                              PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the Office ofInspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        In accordance with the Federal Information Security Management Act of 2002 (FISMA),
OIG performed a review of the Broadcasting Board of Governors (BBG) Information Security
Program for FY 2011. To perform this review, OIG contracted with the independent public
accountant Williams, Adley & Company, LLP. The contract required that the independent
public accountant perform its evaluation in accordance with guidance contained in the
Government Auditing Standards, issued by the Comptroller General of the United States. The
public accountant's report is included. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

        The independent public accountant identified areas in which improvements could be
made, including system inventory, security configuration management, security awareness
training, plans of action and milestones, remote access, user account management controls,
vulnerability assessments, enterprise-wide and system-specific contingency plans, and incident
response.

        OIG evaluated the nature, extent, and timing of Williams, Adley & Company's work;
monitored progress throughout the evaluation; reviewed Williams, Adley & Company's
supporting documentation; evaluated key judgments; and performed other procedures as
appropriate. OIG concurs with Williams, Adley & Company's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. ~IG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effecti.ve, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.




                                       Harold W. Geisel
                                       Deputy Inspector General

                                         UNCLASSIFIED
~~!y~.            WILLIAMS
~. ~,             ADLEY

           Evaluation of Broadcasting Board of Governors Information Security Program


November 7, 2011


Office ofInspector General
U.S. Department of State
2201 CSt., NW
Washington, D.C. 20520


Williams, Adley & Company, LLP (referred to as "we" in this letter), is pleased to provide the
Office of Inspector General (OIG) the results of the evaluation of the Broadcasting Board of
Governors (BBG) Information Security Program for FY 2011 . We evaluated BBG's Information
SecUlity Program performance in compliance with the Federal Information Security
Management Act, Office of Management and Budget (OMB), and National Institute of Standards
and Technology regulations, standards, and requirements. Additionally, the evaluation was
performed to provide sufficient support for OIG in providing responses to OMB in accordance
with OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, dated September 14, 2011.

This evaluation, performed under Contract No. SAQMMA10F2159, was designed to meet the
objectives identified in Appendix A, "Objectives, Scope, and Methodology," of the report. We
communicated the results of our review and the related fmdings and recommendations to BBG' s
management.

We appreciate the cooperation provided by BBG personnel during the evaluation. Should you
have               or if we can be of further assistance, please contact either
(b) (6)




                                    WILLIAMS, ADLEY & COMPANY-DC , LLP
                              Certified Public Accountants / Management Consultants
          1030 1S'h Street, NW, Suite 300W • Washington, DC 20005 • (202) 371 -1397 • Fax : (202) 371 -9161
                                              www.williamsadley.com
                                 UNCLASSIFIED




Acronyms

AD         Windows Active Directory
BBG        Broadcasting Board of Governors
CIO        Chief Information Officer
DHS        Department of Homeland Security
FIPS       Federal Information Processing Standards
FISMA      Federal Information Security Management Act
GAO        Government Accountability Office
IT         information technology
NIST       National Institute of Standards and Technology
OCB        Office of Cuba Broadcasting
OIG        Office of Inspector General
OMB        Office of Management and Budget
POA&M      Plan of Action and Milestones
PII        personally identifiable information
SP         Special Publication
US-CERT    United States Computer Emergency Response Team




                                 UNCLASSIFIED

                                                 UNCLASSIFIED



                                               Table of Contents 



EXECUTIVE SUMMARY ..............................................................................................1
 
BACKGROUND ............................................................................................................4
 
RESULTS OF REVIEW .................................................................................................5
 
A.	          BBG HAS NOT IMPLEMENTED A SYSTEM INVENTORY MANAGEMENT 

             PROCESS .....................................................................................................5
 
B.	          SECURITY STANDARDS AND PROCEDURES HAVE NOT BEEN 

             IMPLEMENTED AND ENFORCED .................................................................6
 
C.	          COMPLIANCE WITH BBG’S SECURITY AWARENESS TRAINING

             PROGRAM WAS NOT STRICTLY ENFORCED .............................................8
 
D.	          PLANS OF ACTION AND MILESTONES HAVE NOT BEEN COMPLETED .....9
 
E.	          REMOTE ACCESS TO THE BBG NETWORK WAS NOT PROPERLY 

             MANAGED AND CONTROLLED .................................................................10
 
F.	          USER ACCOUNT MANAGEMENT CONTROLS NEED IMPROVEMENT .......11
 
G.	          VULNERABILITY ASSESSMENTS WERE NOT PERFORMED ......................13
 
H.	          ENTERPRISE-WIDE AND SYSTEM-SPECIFIC CONTINGENCY PLANS DO 

             NOT EXIST ................................................................................................14
 
I.	          BBG’S INCIDENT RESPONSE POLICY DOES NOT ADHERE TO UNITED 

             STATES COMPUTER EMERGENCY READINESS TEAM’S REPORTING 

             REQUIREMENTS ........................................................................................15
 
LIST OF CURRENT YEAR RECOMMENDATIONS ......................................................18
 
APPENDIX A. OBJECTIVES, SCOPE, AND METHODOLOGY .....................................20
 
APPENDIX B. FOLLOWUP OF RECOMMENDATIONS FROM THE FY 2010 FISMA

       REPORT.....................................................................................................23
 
APPENDIX C. BROADCASTING BOARD OF GOVERNORS RESPONSE .......................26
 




                                                 UNCLASSIFIED

                                           UNCLASSIFIED


                                         Executive Summary

        In accordance with the Federal Information Security Management Act of 2002 (FISMA),1
the Office of Inspector General (OIG) contracted with Williams, Adley & Company, LLP
(referred to as “we” in this report), to perform an independent evaluation of the Broadcasting
Board of Governors (BBG) information security program’s compliance with Federal laws,
regulations, and standards established by FISMA, the Office of Management and Budget
(OMB), and the National Institute of Standards and Technology (NIST). Additionally, the
results are designed to assist OIG in providing responses to OMB Memorandum M-11-33, FY
2011 Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management, dated September 14, 2011.

       We reviewed BBG’s remedial actions taken to address the FY 2010 reported Information
Security Program control weaknesses identified in OIG’s FY 2010 report Review of the
Broadcasting Board of Governors Information Security Program (AUD/IT/IB-11-08, November
2010). The statuses of the FY 2010 review recommendations are in Appendix B. Since FY
2010, BBG has taken the following steps to improve management controls:

          Completed security tests and evaluations and developed risk assessments and system
           security plans for its major systems. 

          Implemented a more robust security incident response tracking process. 

          Developed password management policies and procedures to reduce to the risk of 

           unauthorized access.

        Overall, we found that BBG had continued its efforts to further develop its information
security program. However, to improve the information security program and to bring the
program into compliance with FISMA, OMB, and NIST requirements, BBG needs to address the
following control weaknesses:

           A. System Inventory

                BBG did not complete a system inventory of information technology (IT) assets and
                had not implemented a process to routinely update and manage its IT assets. Without
                a process to properly identify, document, and maintain an inventory of major and
                minor applications, as well as general support systems, BBG may not have an
                accurate accounting of its IT assets, the related system interfaces, and underlying
                support systems.

           B. Security Configuration Management

                BBG did not complete the development and implementation of its security
                configuration management standards and procedures for its IT environment.
                Furthermore, BBG’s standard operating procedures and information security
                practices were not enforced at the Office of Cuba Broadcasting (OCB). As a result,

1   Public Law No. 107-347, Title III.

                                                   1
                                           UNCLASSIFIED
                               UNCLASSIFIED


    BBG did not maintain control over OCB systems connected to its network. 

    Additionally, OCB did not complete a security authorization process. 


    Without detailed procedures and guidance that govern the performance of routine and
    critical configuration management processes, BBG may not be able to effectively
    secure its systems, which may lead to the introduction of security weaknesses and
    inconsistent performance. Additionally, BBG cannot be assured that security
    controls are properly managed and maintained for all systems that access the BBG
    network.

C. Security Awareness Training

    BBG did not sanction employees and contractors who did not complete the annual
    security awareness training course. Although users were informed of the possibility
    of enforcement actions for not completing the course, no such actions were
    implemented. Additionally, contract personnel were not consistently required to
    complete BBG’s security awareness training prior to, or shortly after, being granted
    access to BBG’s network.

    Without the completion of initial and annual security awareness training, personnel
    may be unaware of new risks that may compromise the confidentiality, integrity, and
    availability of information. As a result, personnel may be unable to recognize and
    respond appropriately to real and potential security threats.

D. Plans of Action and Milestones

    BBG’s Plans of Action and Milestones (POA&M) have not been implemented fully
    to track all identified weaknesses pertaining to BBG’s major applications and general
    support systems. Furthermore, the POA&Ms did not provide sufficient details of the
    security weaknesses, planned actions, prioritizations of security weaknesses,
    resources required to address security weaknesses, and changes to milestones for
    actions completed.

    Without periodic updates and reviews of the POA&Ms, BBG IT management may be
    unaware of the status of corrective actions. As a result, delays in the implementation
    of corrective actions may prevent security issues from being resolved in a timely
    manner. Additionally, IT management may be unable to properly assess and
    prioritize the resources that are required to implement corrective actions.

E. Remote Access

    BBG’s remote access policy allowed users to access the BBG network from personal
    computers using software provided by BBG. However, BBG did not have
    procedures in place to ensure that proper safeguards were implemented on non-BBG
    computers that were authorized to access the BBG network remotely.



                                        2
                               UNCLASSIFIED
                                             UNCLASSIFIED


             Without proper policies and procedures that require the use of properly secured
             devices, BBG may be unable to ensure the security of its data and network when
             allowing access to authorized third-party devices. As a result, the risks of
             introducing viruses, worms, and other malicious code increase significantly.

        F.	 User Account Management Controls

             Although BBG has implemented new user account management controls in FY 2011,
             such as user verification controls for password resets that required users to present
             photo identification in person prior to obtaining new passwords, the following
             account management control deficiencies continued in FY 2011:

                 	 Guest, test, and shared user accounts that, when used, do not allow for
                    individual accountability.
                 	 Five of 94 employees who separated from BBG in FY 2011 between October
                    1, 2010, and June 8, 2011, retained “active” Windows Active Directory2 (AD)
                    user accounts as of June 14, 2011.
                 	 One hundred nineteen active user accounts in AD have never been used, and
                    27 of the 119 user accounts were created before 2009.
                 	 Seventy-six active user accounts in AD have not been used for over 90 days,
                    and 24 of the 76 active user accounts have not been used since 2009 or before
                    that year.
                 	 An individual requested and was provided a new password via a telephone
                    call.

             Without more stringent user account management controls, the risk of unauthorized
             use of user accounts and thus unauthorized access to systems increase significantly.
             Unauthorized access to systems may result in the submission of false transactions,
             improper access to and dissemination of confidential data, and other malicious
             activities.

        G. Vulnerability Assessments

             BBG did not perform routine vulnerability assessments of its major systems and
             network environment using the framework outlined in NIST Special Publication (SP)
             800-53A,3 Guide for Assessing the Security Controls in Federal Information Systems.
             Although BBG performed ad hoc scans of its systems and the general support
             system, BBG has not expanded the process to include the periodic re-performance of
             vulnerability assessments for all major systems or the routine performance of such
             scans on its enterprise network. Without periodic reviews or the performance of risk-
             based vulnerability assessments, new threats and vulnerabilities may not be identified
             and mitigated in a timely manner.

2 Active Directory (AD), a technology created by Microsoft, provides a variety of network services such as 

identification and authentication, directory access, and other network services.

3 NIST SP 800-53A, Guide for Assessing Security Controls in Federal Information Systems, Building Effective 

Security Assessment Plans, July 2008.


                                                        3
                                             UNCLASSIFIED
                                            UNCLASSIFIED



        H. Enterprise-Wide and System-Specific Contingency Plans

             BBG did not develop and implement contingency planning and testing policies and
             procedures compliant with OMB and NIST requirements contained in NIST SP 800-
             34, Revision 1,4 Contingency Planning Guide for Federal Information Systems.
             Specifically, BBG did not complete its enterprise-wide and system-specific
             contingency plans or conduct contingency tests. Without an effective contingency
             plan, which includes periodic testing of the plan’s reliability, BBG may be unable to
             access critical information and resources and perform mission-critical business
             functions in the event of an extended outage and/or a disaster.

        I. Incident Response

             BBG’s Computer Security Incident Management Policy does not comply fully with
             the requirements established by the United States Computer Emergency Readiness
             Team (US-CERT) at the Department of Homeland Security (DHS). BBG’s policy
             requires category one (CAT 1) incidents to be reported to US-CERT within 2 hours
             of detection, but US-CERT stipulates that CAT 1 incidents be reported within 1 hour
             of discovery/detection. Further, BBG’s policy does not include reporting
             requirements for incidents of compromised personally identifiable information (PII).
             The US-CERT reporting timeframe for incidents that involve compromised PII is
             within 1 hour of detection regardless of the incident’s category reporting timeframe.
             Without an effective incident response capability, BBG may not detect security
             incidents, minimize loss and destruction, mitigate the weaknesses that were
             exploited, and restore computing services in a timely manner.

        Although this report contains 12 recommendations, we believe the most significant
security deficiencies relate to security configuration management (Finding B), POA&M (Finding
D), vulnerability assessments (Finding G), contingency plans (Finding H), and incident response
(Finding I).

       We provided the draft report to BBG officials on October 27, 2011. In BBG’s
November 2, 2011, response (see Appendix C) to this report, BBG concurred with the 12
recommendations. Based on the response, OIG considers all 12 recommendations resolved,
pending further action.

      BBG’s responses to the recommendations and OIG’s analyses are presented after each
recommendation.

                                              Background

        FISMA recognizes the importance of information security to the economic and national
security interests of the United States and requires each Federal agency to develop, document,
and implement an agency-wide program to provide information security for the information

4 NIST SP 800-34, rev.1, Contingency Planning Guide for Federal Information Systems, May 2010.

                                                      4
                                            UNCLASSIFIED
                                          UNCLASSIFIED



systems that support the operations and assets of the agency, including those provided or
managed by another agency or contractor or another source. FISMA provides a comprehensive
framework for establishing and ensuring the effectiveness of management, operational, and
technical controls over IT that supports Federal operations and assets, and it provides a
mechanism for improved oversight of Federal agency information security programs.

       To strengthen information system security, FISMA assigns specific responsibilities to
DHS, NIST, OMB, and other Federal agencies. In particular, FISMA requires the head of each
agency to implement policies and procedures to cost effectively reduce IT security risks to an
acceptable level. To ensure the adequacy and effectiveness of information system controls,
FISMA requires agency program officials, chief information officers, senior agency officials for
privacy, and inspectors general to conduct annual reviews of the agency’s information security
program and report the results to DHS.

        On an annual basis, OMB provides guidance with reporting categories and questions to
meet the current year’s reporting requirements.5 OMB uses responses to its questions to assist in
its oversight responsibilities and to prepare its annual report to Congress on agency compliance
with FISMA.

                                        Results of Review
        Overall, we found that BBG made progress in FY 2011 toward developing its information
security program, but challenges remain. BBG needs to address several control weaknesses as
described to bring the information security program into compliance with FISMA, OMB, and
NIST requirements.

A. BBG Has Not Implemented a System Inventory Management Process
      The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG did not complete its system inventory of IT assets.

        BBG has not implemented a process or procedures to routinely update and manage its IT
assets. During the fourth quarter of FY 2010, an IT director was hired to develop the system
inventory management process. A system inventory management tool was selected and the
required purchase order was submitted. However, the procurement has not been finalized.

        FISMA requires the head of each agency to develop and maintain an inventory of major
information systems (including major national security systems) operated by or under the
agency’s control. Each agency must identify information systems in an inventory, including the
interfaces between each system and all other systems or networks, to include those not operated
by or under the control of the agency. FISMA further requires that the inventory be updated at
least annually and be used to support information resources management. Additionally, NIST



5OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, Sept.14, 2011.

                                                   5
                                          UNCLASSIFIED
                                            UNCLASSIFIED



SP 800-53, Revision 3,6 Recommended Security Controls for Information Systems and
Organizations, requires the organization to develop, document, and maintain an inventory of
information system components that accurately reflects the current information system, is
consistent with the authorization boundary of the information system, is at the level of
granularity deemed necessary for tracking and reporting, includes organization-defined
information deemed necessary to achieve effective property accountability, and is available for
review and audit by designated organization officials.

        Without a system inventory management process, BBG may not have an accurate
accounting of its IT assets and the related system interfaces and underlying support systems and
will not be able to properly identify and mitigate security risks. As a result, critical management
processes such as strategic planning, budgeting, system administration, and resource
management may be adversely affected.

        Recommendation 1: We recommend that the Chief Information Officer ensure that the
        selected system inventory management software tool is acquired and implemented and a
        process is developed to update, not less than annually, the Broadcasting Board of
        Governors (BBG) system inventory when changes are made to those information systems
        operated by or under the control of BBG or by third-party contractors or agencies on
        behalf of BBG, as required by National Institute of Standards and Technology Special
        Publication 800-53, Revision 3.

        Management Comments: BBG concurred with the recommendation, stating that it “has
        acquired the inventory management software tool and is currently installing and
        configuring the tool. The CIO will oversee testing of this tool and the development of a
        process to update BBG’s system inventory periodically.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that BBG has
        implemented a system inventory process.

B. Security Standards and Procedures Have Not Been Implemented and
   Enforced
        The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG did not complete the development and implementation of its
security configuration and performance measurement standards and procedures for the IT
environment. Further, BBG’s standard operating procedures and information security policies
were not enforced at OCB. Therefore, BBG did not maintain control over OCB systems
connected to its network, and OCB managed its own servers that were connected to BBG’s
network. Additionally, OCB did not complete the security authorization process.

      BBG drafted several IT policies and procedures during FY 2011; however, BBG’s IT
management stated that the additional IT policies and procedures had not been implemented
6 NIST SP 800-53, rev.3, Recommended Security Controls for Information Systems and Organizations, Aug.2009
(updated through Sept. 14, 2009).

                                                     6
                                            UNCLASSIFIED
                                             UNCLASSIFIED



because of resource limitations. Additionally, although BBG’s IT department provides guidance
to OCB regarding development and implementation of IT policies and procedures, it does not
have the authority to enforce compliance because OCB reports directly to the Broadcasting
Board of Governors.

          In regard to security standards and procedures, NIST SP 800-53, Revision 3,7
states:

          The organization develops, disseminates, and periodically reviews/updates: (a) a
          formal, documented, configuration management policy that addresses purpose,
          scope, roles, responsibilities, management commitment, coordination among
          organizational entities, and compliance; and (b) formal, documented procedures
          to facilitate the implementation of the configuration management policy and
          associated configuration management controls.

         Without detailed procedures and guidance that govern the performance of routine and
critical processes, BBG may not be able to effectively manage its IT program, which could
introduce security weaknesses and result in inconsistent performance. Additionally, BBG cannot
be assured that security controls are properly managed and maintained for all systems that access
the BBG network. As a result, systems may operate in the production environment without
appropriate controls or management oversight.
          Recommendation 2: We recommend that the Chief Information Officer complete the
          development and implementation of security configuration procedures and periodically
          assess compliance with the implemented procedures, as required by National Institute of
          Standards and Technology Special Publication 800-53, Revision 3.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “will oversee the collection and organization of any existing security configuration
          procedures, will assess progress to complete the development and implementation of
          additional procedures by March 31, 2012, and will periodically access compliance with
          these implemented procedures.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and accepts documentation showing standard operating
          procedures for security configuration.

          Recommendation 3: We recommend that the Chief Information Officer develop
          procedures to ensure that security controls are properly managed and maintained for all
          systems that access the Broadcasting Board of Governors network, as required by
          National Institute of Standards and Technology Special Publication 800-53, Revision 3.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “will oversee the development of procedures to provide oversight such that security


7   Configuration Management Policy and Procedures (CM-1).

                                                      7
                                             UNCLASSIFIED
                                          UNCLASSIFIED



        controls are properly managed and maintained for all systems that directly access the
        BBG network by March 31, 2012.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing procedures for
        overseeing the management and maintenance of security controls for all systems that
        access the BBG network.

C. Compliance With BBG’s Security Awareness Training Program Was Not
   Strictly Enforced
        The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG did not sanction employees and contractors who did not
complete the annual security awareness training course. Although users were informed of the
possibility of enforcement actions for not completing the course, no such actions were
implemented. BBG IT management stated that compliance with the security awareness training
policy was not strictly enforced because of concerns about possible disruption of BBG’s mission
and employees’ job responsibilities if user access was restricted. Additionally, contractor
personnel were not consistently required to complete BBG’s security awareness training prior to
or shortly after being granted access to BBG’s network.

        In regard to security awareness, NIST SP 800-53, Revision 3,8 states:

        The organization ensures all users (including managers and senior executives) are
        exposed to basic information system security awareness materials before
        authorizing access to the system and thereafter (that is, at least annually).9

        The organization employs a formal sanctions process for personnel failing to
        comply with established information security policies and procedures.10

       Without the completion of initial and annual security awareness training, personnel may
be unaware of new risks that may compromise the confidentiality, integrity, and availability of
data. As a result, personnel may be unable to recognize and respond appropriately to real and
potential security concerns.
        Recommendation 4: We recommend that the Chief Information Officer update the
        security awareness training policy requiring all new personnel to attend initial and
        refresher security awareness training and enforce consequences of noncompliance for
        personnel who do not successfully complete the security awareness training, as required
        by National Institute of Standards and Technology Special Publication 800-53, Revision
        3, and the Broadcasting Board of Governors information security policies.



8 Ibid. 

9 Security Awareness Control (AT-2). 

10 Personnel Sanctions Control (PS-8).



                                                8
                                          UNCLASSIFIED
                                          UNCLASSIFIED



        Management Comments: BBG concurred with the recommendation, stating that the
        CIO “has initiated discussions” with BBG’s Office of Human Resources “to require all
        new personnel to attend initial or refresher security awareness training.” BBG further
        stated that the CIO “will update the security awareness training policy by December 31,
        2011,” and “will work with” the Office of Human Resources “to develop and implement
        consequences for personnel who are non-compliant with the policy, while minimizing the
        impact on Agency operations and the BBG mission.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts the revised security awareness training policy
        showing the requirements of training for new personnel and the enforcement actions to be
        taken for noncompliant personnel.

D. Plans of Action and Milestones Have Not Been Completed
        The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG’s POA&Ms have not been completed fully to track all identified
weaknesses in BBG’s major applications and general support systems. Further, POA&Ms did
not include sufficient details of security weaknesses such as planned actions, prioritization of
weaknesses, required resources, or changes to milestones for actions that had not been completed
according to the plan.

        Although BBG contracted with a vendor during the third quarter of FY 2010 to assist it
with the security authorization of its systems, including the development of POA&Ms for each
system, the POA&M process has not been formalized to establish the information requirements
or a requirement to review and update the POA&Ms periodically.

        OMB Memorandum M-11-33states:11 “POA&Ms must include all security weaknesses
found during any other review done by, for, or on behalf of the agency, including GAO audits,
financial system audits, and critical infrastructure vulnerability assessments. These plans should
be the authoritative agency-wide management tool, inclusive of all evaluations.”

       Without periodic updates and reviews of POA&M activities, BBG IT management may
be unaware of the statuses of corrective actions. As a result, delays in the implementation of
corrective actions may prevent security issues from being resolved in a timely manner.
Additionally, IT management may be unable to properly assess and prioritize the resources
required to implement corrective actions.
        Recommendation 5: We recommend that the Chief Information Officer develop a
        policy requiring responsible managers to review and update Plans of Action and
        Milestones and assess the timeliness of corrective actions to determine whether additional
        resources may need to be allocated to prevent delays, as required by Office of
        Management and Budget Memorandum M-11-33, FY 2011 Reporting Instructions for the


11 OMB M-11-33, sec. 36, POA&M (citing previous guidance contained in OMB M-04-25, FY 2004 Reporting
Instructions for the Federal Information Security Management Act).

                                                   9
                                          UNCLASSIFIED
                                          UNCLASSIFIED



          Federal Information Security Management Act and Agency Privacy Management,
          September 14, 2011.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “will edit” the current POA&M policy by December 31, 2011, “to require
          responsible managers to review and update their respective POA&Ms periodically.”
          BBG further stated that the CIO or his designee will also “review these POA&M reports
          periodically to determine whether or not additional resources need to be allocated.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and accepts documentation showing that POA&Ms are
          reviewed and updated periodically and that resources have been allocated as necessary to
          prevent delays in taking corrective actions.

E. Remote Access to the BBG Network Was Not Properly Managed and
   Controlled
       The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG’s remote access policy allowed users to access the BBG network
from personal computers using software provided by BBG. However, BBG did not have
procedures in place to ensure that proper safeguards were implemented on non-BBG computers
that were authorized to access the BBG network remotely.

        BBG allows its users to remotely access the BBG network using their personal
computers. BBG’s IT management stated that a process has been drafted and a software tool has
been identified that will detect and scan the security settings of requesting computers but that the
project has not been funded.

       According to NIST SP 800-53, Revision 3,12 the organization documents, monitors, and
controls all methods of remote access (for example, dial-up and the Internet) to the information
system, including remote access for privileged functions. Appropriate organization officials
authorize each remote access method for the information system and authorize only the
necessary users for each access method.

Without proper policies and procedures that require the use of properly secured devices, BBG
may be unable to ensure the security of its data and network when allowing access to authorized
third-party devices. As a result, the risks of introducing viruses, worms, or other malicious code
increase significantly.

          Recommendation 6: We recommend that the Chief Information Officer implement the
          process and software tool to assess the adequacy of the security configurations of third-
          party devices that request access to the Broadcasting Board of Governors network and
          grant access only to properly configured devices, as required by National Institute of
          Standards and Technology Special Publication 800-53, Revision 3.

12   Remote Access Control (AC-17).

                                                  10
                                          UNCLASSIFIED
                                            UNCLASSIFIED




        Management Comments: BBG concurred with the recommendation, stating that the
        CIO “will develop the process and initiate planning and testing of the software tool
        intended to assess the adequacy of the security configurations of third-party devices that
        request access (generally through a Virtual Private Network [VPN]) to the BBG
        network.” BBG further stated that it “will grant access only to those [third-party devices]
        whose configurations are deemed sufficient, by March 31, 2012, pending allocation of
        sufficient funds for this purpose.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that BBG has
        implemented a process to assess the adequacy of the security configurations of third-party
        devices that request access to the BBG network and grant access only to properly
        configured devices.

F. User Account Management Controls Need Improvement
       The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG’s user account management controls do not ensure that access is
provided to authorized personnel only. Although BBG implemented new user account
management controls in FY 2011, including user verification controls that require users to obtain
new passwords in person after presenting photo identification, we observed the following
account management control deficiencies:

     	 Guest, test, and shared user accounts that, when used, do not allow for individual 

        accountability. 

     	 Five of 94 employees who separated from BBG in FY 2011 between October 1, 2010,
        and June 8, 2011, retained “active” AD user accounts as of June 14, 2011.
     	 One hundred nineteen active user accounts in AD have never been used, and 27 of the
        119 user accounts were created before 2009.
     	 Seventy-six active user accounts in AD have not been used for over 90 days, and 24 of
        the 76 active user accounts have not been used since 2009 or before that year.
     	 An individual requested and was provided a new password via a telephone call.

        BBG has taken actions to remove unnecessary user accounts; however, the process has
not been completed and procedures have not been established to perform the review routinely.
Additionally, BBG’s help desk personnel did not consistently adhere to the established user
verification controls for the issuance of new passwords.

        OMB Circular No. A-130, Revised, Appendix III,13 states:


13OMB Circular No. A-130 Revised, Management of Federal Information Resources, app. III, “Security of Federal
Automated Information Resources,” Nov. 28, 2000.

                                                     11
                                            UNCLASSIFIED
                                            UNCLASSIFIED



          Agencies shall implement and maintain a program to assure that adequate security
          is provided for all agency information collected, processed, transmitted, stored, or
          disseminated in general support systems and major applications. “Adequate
          security” means security commensurate with the risk and magnitude of the harm
          resulting from the loss, misuse, or unauthorized access to or modification of
          information. This includes assuring that systems and applications used by the
          agency operate effectively and provide appropriate confidentiality, integrity, and
          availability, through the use of cost-effective management, personnel, operational,
          and technical controls.

       Additionally, NIST SP 800-53, Revision 3,14 states that the organization manages
information system accounts, including authorizing and monitoring the use of guest and
anonymous and temporary accounts, and reviewing accounts.

        Without more stringent user account management controls, unauthorized use of user
accounts and thus, the risk of unauthorized access to systems increases significantly.
Unauthorized access to systems may result in the submission of false transactions, improper
access to and dissemination of confidential data, and other malicious activities.

          Recommendation 7: We recommend that the Chief Information Officer establish
          policies and procedures to restrict the use of guest, test, and shared user accounts to
          ensure user accountability, in accordance with National Institute of Standards and
          Technology Special Publication 800-53, Revision 3.
          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “has made significant progress in reviewing the history and rationale of guest, test,
          and shared user accounts.” BBG further stated that the CIO “will develop policies and
          procedures to restrict the use of guest, test, and shared user accounts to ensure user
          accountability for access to BBG computing resources by December 31, 2011.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and accepts BBG’s policies and procedures that restrict the
          use of guest, test, and shared user accounts.

          Recommendation 8: We recommend that the Chief Information Officer establish
          policies and procedures requiring system owners to notify account managers when
          information system users are terminated or transferred or when information system usage
          or need-to know/need-to-share changes are made, in accordance with National Institute of
          Standards and Technology Special Publication 800-53, Revision 3.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “will develop policies and procedures requiring system owners to notify account
          managers when user employment status or system access needs change by March 31,
          2012.”


14   Account Management Access Control 2 (AC-2).

                                                   12
                                            UNCLASSIFIED
                                             UNCLASSIFIED



        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts BBG’s policies and procedures that require
        system owners to notify account managers when there is a change in a user’s employment
        status or system access needs.

        Recommendation 9: We recommend that the Chief Information Officer implement
        procedures to monitor and review compliance with the password reset procedures to
        ensure that Help Desk personnel enforce the password reset policy, which requires the
        requesting user to be physically present to allow Help Desk personnel to verify the user’s
        identity.

        Management Comments: BBG concurred with the recommendation, stating that the
        CIO “will develop and implement procedures for monitoring and reviewing compliance
        with the password reset procedures by March 31, 2012.” BBG further stated that the CIO
        “will review the password reset policy and consider alternative methods for
        implementing the user identification requirements.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that compliance with
        the password reset procedures is monitored and reviewed.

G. Vulnerability Assessments Were Not Performed
       The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG did not perform routine vulnerability assessments of its major
systems and network environment using the framework outlined in NIST SP 800-53A.15
Although BBG performed ad hoc scans of its systems and the general support system, BBG did
not expand the process to include the periodic re-performance of vulnerability assessments for all
major systems or the routine performance of such scans on its enterprise network.

       BBG IT management stated that a vulnerability assessment tool was implemented during
FY 2011 to perform scans of its network. However, the policy and related procedures for routine
vulnerability assessments have not been developed and implemented.

       According to NIST SP 800-53A,16 the organization scans for vulnerabilities in the
information system under an organization-defined frequency schedule or when significant new
vulnerabilities potentially affecting the system are identified and reported.

        Without periodic reviews or the performance of risk-based vulnerability assessments
using NIST SP 800-53A,17 new threats and vulnerabilities may not be identified and mitigated in
a timely manner. Such threats and vulnerabilities may limit the effectiveness of security
controls, thereby resulting in the loss, damage, or theft of valuable information and/or resources.

15 NIST SP 800-53A, Guide for Assessing Security Controls in Federal Information Systems, Building Effective 

Security Assessment Plans, July 2008.

16 Risk Assessment Control RA-5. 

17 Ibid. 



                                                       13
                                             UNCLASSIFIED
                                            UNCLASSIFIED




        Recommendation 10: We recommend that the Chief Information Officer develop and
        implement policies and procedures to perform routine vulnerability assessments for all
        major systems and general support systems, as required by National Institute of
        Standards and Technology Special Publication 800-53A.
        Management Comments: BBG concurred with the recommendation, stating that it “has
        acquired a software tool and is currently installing and configuring the tool.” BBG
        further stated that the CIO “will develop policies and procedures to perform routine
        vulnerability assessments with the tool for all major systems and general support systems
        by December 31, 2011.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that routine
        vulnerability assessments are performed for all major systems and general support
        systems.

H. Enterprise-Wide and System-Specific Contingency Plans Do Not Exist
        The FY 2010 Review of the Information Security Program at the Broadcasting Board of
Governors concluded that BBG did not develop and implement contingency planning and testing
policies and procedures compliant with NIST SP 800-34, Revision 1.18 Specifically, BBG did
not complete its enterprise-wide and system-specific contingency plans or conduct contingency
tests.

       BBG does not have formal policies and procedures for developing contingency plans.
BBG’s IT management stated that although a strategic plan was developed to address BBG’s
contingency and business resumption needs, resources were not appropriated to develop policies
and procedures for contingency plans because of substantial budget uncertainties at BBG during
FY 2011.

         NIST SP 800-34, Revision 1,19 states that information systems are “vital elements” in
most business functions and that “it is critical” that the services provided by these systems are
able to operate effectively without excessive interruption. Further, NIST SP 800-53, Revision
3,20 states, “Contingency planning supports this requirement by establishing thorough plans,
procedures, and technical measures that can enable a system to be recovered quickly and
effectively following a service disruption.”

         Without an effective contingency plan, which includes periodic testing of the plan's
reliability, BBG may be unable to access critical information and resources or perform mission-


18 NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems May 2010 (last updated

November 11, 2010).

19 Ibid. 

20 NIST SP 800-53, rev. 3, Recommended Security Controls for Federal Information Systems and Organizations, 

Aug 2009. 


                                                      14
                                            UNCLASSIFIED
                                              UNCLASSIFIED



critical business functions in the event of an extended outage and/or a disaster. As a result, BBG
may be unable to resume operations in an efficient and effective manner.

          Recommendation 11: We recommend that the Chief Information Officer ensure that the
          Director of Disaster Recovery and Business Continuity develop and implement
          contingency planning policies and procedures; develop contingency plans for the
          Broadcasting Board of Governors (BBG) infrastructure (network) and its major systems;
          provide contingency planning training to personnel who are responsible for the recovery
          of the network and systems; perform periodic testing of BBG’s contingency plans; and
          update the plan based on lessons learned, as required by National Institute of
          Standards and Technology Special Publication 800-34, Revision 1.
          Management Comments: BBG concurred with the recommendation, stating that
          although its IT Directorate in the Office of Technology, Services, and Innovation does
          have data backup, restoration plans, and deep investments in internal redundant
          architecture, BBG “agrees to further develop contingency plans and increase investments
          in offsite systems to be used for business continuity.” BBG further stated: “To support
          and lead this effort, the CIO is planning to add a Disaster Recovery and Business
          Continuity Manager position by March 31, 2012, to focus specifically on this subject.
          All positions and equipment required to meet this recommendation are subject to
          available funding.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and accepts documentation showing the development of
          contingency planning policies and procedures that include training requirements for
          personnel who are responsible for the recovery of the network and systems and
          contingency plans for the BBG infrastructure and its major systems.

I. BBG’s Incident Response Policy Does Not Adhere to United States
   Computer Emergency Readiness Team’s Reporting Requirements
       BBG’s Computer Security Incident Management Policy does not comply with the
requirements established by US-CERT. BBG’s policy requires category 1 (CAT 1) incidents to
be reported to US-CERT within 2 hours of detection, but US-CERT stipulates that CAT 1
incidents be reported within 1 hour of discovery/detection.

        The US-CERT Federal Incident Reporting Guidelines and NIST SP 800-61, Revision 1,21
require the following:

           Category      Name               Description                              Reporting Timeframe
           CAT 1         Unauthorized       In this category, an individual          Within one (1) hour of
                         Access             gains logical or physical access         discovery/detection.
                                            without permission to a federal
                                            agency network, system,
                                            application, data, or other resource.

21 NIST   SP 800-61, rev.1, Computer Security Incident Handling Guide, March 2008.

                                                       15
                                              UNCLASSIFIED
                                           UNCLASSIFIED


        Further, BBG’s policy does not include reporting requirements for incidents of
compromised PII. The US-CERT reporting timeframe for incidents that involve compromised
PII is within 1 hour of detection regardless of the incident’s category reporting timeframe. OMB
Memorandum M-07-1622 states:

        Agencies must report all incidents involving personally identifiable information to US-
        CERT. This reporting requirement does not distinguish between potential and confirmed
        breaches. The US-CERT concept of operations for reporting Category 1 incidents is
        modified as follows:

            Category 1: Unauthorized Access or Any Incident Involving Personally
            Identifiable Information. In this category agencies must report when: 1) an
            individual gains logical or physical access without permission to a federal
            agency network, system, application, data, or other resource; or 2) there is a
            suspected or confirmed breach of personally identifiable information
            regardless of the manner in which it might have occurred. Reporting to US-
            CERT is required within one hour of discovery/detection.

       Lastly, BBG’s Computer Security Incident Management Policy23 states that incidents will
be escalated to external entities (for example, US-CERT and law enforcement) only during
normal business hours.24

        BBG’s IT management stated that some US-CERT requirements were mistakenly
excluded during the development of its new incident response policy. IT management further
stated that the reporting timelines were extended because of BBG’s resource limitations.

        Without an effective incident response capability, BBG may not be able respond to
security incidents in a timely manner and restore computing services.

        Recommendation 12: We recommend that the Chief Information Officer develop and
        implement a complete and comprehensive process that meets United States-Computer
        Emergency Readiness Team’s (US-CERT) requirements for identifying, reporting, and
        resolving computer security incidents in a timely manner, as required by National
        Institute of Standards and Technology Special Publication 800-61, Revision 1, and Office
        of Management and Budget Memorandum M-07-16. Also, BBG’s Computer Security
        Incident Management Policy should be revised to include clear and comprehensive
        guidance for the identification, prioritization, and notification of security incidents, both
        internally and to US-CERT. The security incident identification and notification
        procedures should also specifically address the procedures for responding to security
        incidents involving the breach of personally identifiable information whether the breach
        occurred in electronic or paper format.

22 OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable 

Information, May 22, 2007. 

23 Computer Security Incident Management Policy May 16, 2011 

24Ibid.



                                                    16
                                           UNCLASSIFIED
                              UNCLASSIFIED



Management Comments: BBG concurred with the recommendation, stating that it
“will modify the policy” by December 31, 2011.

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts the revised incident response policy showing a
complete and comprehensive process that meets US-CERT’s requirements for
identifying, reporting, and resolving computer security incidents.




                                      17
                              UNCLASSIFIED
                                        UNCLASSIFIED



                        List of Current Year Recommendations 

Recommendation 1: We recommend that the Chief Information Officer ensure that the selected
system inventory management software tool is acquired and implemented and a process is
developed to update, not less than annually, the Broadcasting Board of Governors (BBG) system
inventory when changes are made to those information systems operated by or under the control
of BBG or by third-party contractors or agencies on behalf of BBG, as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

Recommendation 2: We recommend that the Chief Information Officer complete the
development and implementation of security configuration procedures and periodically assess
compliance with the implemented procedures, as required by the National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

Recommendation 3: We recommend that the Chief Information Officer develop procedures to
ensure that security controls are properly managed and maintained for all systems that access the
Broadcasting Board of Governors network, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

Recommendation 4: We recommend that the Chief Information Officer update the security
awareness training policy requiring all new personnel to attend initial and refresher security
awareness training and enforce consequences of noncompliance for personnel who do not
successfully complete the security awareness training, as required by the National Institute of
Standards and Technology Special Publication 800-53, Revision 3, and the Broadcasting Board
of Governors information security policies.

Recommendation 5: We recommend the Chief Information Officer develop a policy requiring
responsible managers to review and update Plans of Action and Milestones and assess the
timeliness of corrective actions to determine whether additional resources may need to be
allocated to prevent delays, as required by Office of Management and Budget Memorandum M-
11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, September 14, 2011.

Recommendation 6: We recommend that the Chief Information Officer implement the process
and software tool to assess the adequacy of the security configurations of third-party devices that
request access to the Broadcasting Board of Governors network and grant access only to properly
configured devices, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Recommendation 7: We recommend that the Chief Information Officer establish policies and
procedures to restrict the use of guest, test, and shared user accounts to ensure user
accountability in accordance with National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Recommendation 8: We recommend that the Chief Information Officer establish policies and
procedures requiring system owners to notify account managers when information system users

                                                18
                                        UNCLASSIFIED
                                       UNCLASSIFIED



are terminated or transferred or when information system usage or need-to know/need-to-share
changes are made, in accordance with the National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

Recommendation 9: We recommend that the Chief Information Officer implement procedures
to monitor and review compliance with the password reset procedures to ensure that Help Desk
personnel enforce the password reset policy, which requires the requesting user to be physically
present to allow Help Desk personnel to verify the user’s identity.

Recommendation 10: We recommend that the Chief Information Officer develop and
implement policies and procedures to perform routine vulnerability assessments for all major
systems and general support systems, as required by National Institute of Standards and
Technology Special Publication 800-53A.

Recommendation 11: We recommend that the Chief Information Officer ensure that the
Director of Disaster Recovery and Business Continuity develop and implement contingency
planning policies and procedures; develop contingency plans for the Broadcasting Board of
Governors (BBG) infrastructure (network) and its major systems; provide contingency planning
training to personnel who are responsible for the recovery of the network and systems; perform
periodic testing of BBG’s contingency plans; and update the plan based on lessons learned, as
required by National Institute of Standards and Technology Special Publication 800-34, Revision
1.
Recommendation 12: We recommend that the Chief Information Officer develop and
implement a complete and comprehensive process that meets United States-Computer
Emergency Readiness Team’s (US-CERT) requirements for identifying, reporting, and resolving
computer security incidents in a timely manner, as required by National Institute of Standards
and Technology Special Publication 800-61, Revision 1, and Office of Management and Budget
Memorandum M-07-16. Also, BBG’s Computer Security Incident Management Policy should
be revised to include clear and comprehensive guidance for the identification, prioritization, and
notification of security incidents, both internally and to US-CERT. The security incident
identification and notification procedures should also specifically address the procedures for
responding to security incidents involving the breach of personally identifiable information
whether the breach occurred in electronic or paper format.




                                                19
                                       UNCLASSIFIED
                                       UNCLASSIFIED



                 Appendix A. Objectives, Scope, and Methodology
       In order to fulfill its responsibilities related to the Federal Information Security
Management Act (FISMA), the Office of Inspector General (OIG) contracted with Williams,
Adley & Company, LLP (referred to as “we” in this appendix), an independent public
accountant, to evaluate the Broadcasting Board of Governors (BBG) information security
program and practices to determine the effectiveness of such programs and practices for FY
2011.

        FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency or
contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

        We conducted the evaluation from April through September 2011. In addition, we
performed the review in accordance with Generally Accepted Government Auditing Standards
(GAGAS), FISMA, OMB, and National Institute of Standards and Technology Special
Publication (NIST SP) guidance. GAGAS requires that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We and OIG believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

        We performed fieldwork from April through July 31, 2011. Our fieldwork was
completed before OMB Memorandum M-11-33, dated September 14, 2011, was issued. This
memorandum provided instructions for FY 2011 reporting requirements. We reviewed the
memorandum and determined that no additional testing was required to fulfill the FISMA
reporting requirements.

       We used the following laws, regulations, and policies, to evaluate the adequacy of the
controls in place at BBG:




                                               20
                                       UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                    1
           OMB Memoranda M-02-01, M-07-16, M-08-21, and M-11-33.
           BBG policies and procedures such as the BBG Computer Security Incident
            Management Policy.
           Federal laws, regulations, and standards such as FISMA and those contained in OMB
                                          2                            3
            Circular No. A-130, Revised, and OMB Circular No. A-11.
           NIST SPs, Federal Information Systems Processing Publications (FIPS), other
            applicable NIST publications, and industry best practices.

       In our evaluation, we assessed BBG’s information security program policies, procedures,
and processes in the following areas:

           Risk management framework (formerly Certification & Accreditation)

           Security configuration management 

           Incident response and reporting 

           Security training 

           Plans of action and milestones 

           Remote access

           Account and identity management 

           Continuous monitoring 

           Contingency planning 

           Oversight of contractor systems

           Security architecture and capital planning 


       The evaluation covered the period October 1, 2010, to September 30, 2011. During the
fieldwork, we took the following actions:

    	 Determined the extent to which BBG’s information security plans, programs, and
       practices complied with FISMA requirements; applicable Federal laws, regulations,
       and standards; relevant OMB Circular No. A-130, revised, processes and reporting
       requirements included in Appendix III; and NIST and FIPS requirements.

    	 Reviewed relevant security programs and practices to report on the effectiveness of
       BBG’s agency-wide information security program in accordance with OMB’s annual
       FISMA reporting instructions. The evaluation approach addressed OMB Memorandum
       M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
       Management Act and Agency Privacy Management, dated September 14, 2011.


1 OMB Memoranda M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones, 

Oct. 17, 2001; M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable 

Information, May 22, 2007; M-08-21, FY 2008 Reporting Instructions for the Federal Information Security 

Management Act and Agency Privacy Management, July 14, 2008; and M-11-33, FY 2011 Reporting Instructions 

for the Federal Information Security Management Act and Agency Privacy Management, Sept.14, 2011.

2 OMB Circular No. A-130 Revised, Management of Federal Information Resources, app.III, “Security of Federal

Automated Information Resources,” Nov. 30, 2000.

3 OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, Aug. 2011. 



                                                      21
                                            UNCLASSIFIED
                                   UNCLASSIFIED



	 Assessed programs for monitoring of security policy and program compliance and
   responding to security events (that is, unauthorized changes detected by intrusion
   detection systems).

	 Performed testing of major systems at the discretion of OIG.

	 Assessed the adequacy of internal controls related to the areas reviewed. Control
   deficiencies identified during the review are included in this report.

	 Evaluated BBG’s remedial actions taken to address the previously reported Information
   Security Program control weaknesses identified in OIG’s Review of the Information
   Security Program at the Broadcasting Board of Governors (AUD/IT/IB-11-08,
   November 2010).




                                           22
                                   UNCLASSIFIED
                                        UNCLASSIFIED



                 Appendix B. Followup of Recommendations From
                           the FY 2010 FISMA Report
       The evaluation team reviewed actions implemented by management to mitigate the
findings identified in the FY 2010 FISMA report. The current status of each of the
recommendations follows:

Recommendation 1: We recommend that the Chief Information Officer ensure that the
Information Technology Director develop and implement a process to update, not less than
annually, the Broadcasting Board of Governors (BBG) system inventory when changes occur or
are made to those information systems operated by or under the control of BBG or by those
third-party contractors or agencies on behalf of BBG.

2011 Status – Open; this repeat recommendation has become Recommendation 1 (Finding A) in
the FY 2011 report.

Recommendation 2: We recommend that the Chief Information Officer continue efforts to
complete the certification and accreditation of the Broadcasting Board of Governors major
systems to include the development and maintenance of documentation used in the certification
process and the security accreditation decision, inclusive of the Federal Information Processing
Standards Publication 199 system categorization, risk assessment, system security plan, plan of
action and milestones, and contingency plan.

2011 Status – Closed.

Recommendation 3: We recommend that the Chief Information Officer ensure that the
appropriate information technology personnel are assigned to develop and implement standard
operating procedures for security configuration and performance measurement and ensure that
management of the Broadcasting Board of Governors periodically assess compliance with the
implemented procedures.

2011 Status – Closed.

Recommendation 4: We recommend that the Chief Information Officer develop standard
operating procedures, including the performance of periodic security assessments and continuous
monitoring for security threats, for the oversight of all systems and hardware that are connected
to the Broadcasting Board of Governors network.

2011 Status – Open; this repeat recommendation has become Recommendation 2 (Finding B) in
the FY 2011 report.

Recommendation 5: We recommend that the Chief Information Officer update the security
awareness training policy requiring all new employees and contractors to attend initial security
awareness training, require all employees and contractors to receive refresher training annually,



                                                23
                                        UNCLASSIFIED
                                        UNCLASSIFIED



develop disciplinary actions for those who do not take annual refresher training, and develop
training for personnel who have significant security responsibilities.

2011 Status – Open; this repeat recommendation has become Recommendation 4 (Finding C) in
the FY 2011 report.

Recommendation 6: We recommend the Chief Information Officer develop a policy requiring
responsible managers to review and update Plans of Action and Milestones (POA&M) at a
minimum, on a quarterly basis; review the quarterly POA&M reports; and assess the timeliness
of corrective actions to allocate resources needed to prevent delays.

2011 Status – Open; this repeat recommendation has become Recommendation 5 (Finding D) in
the FY 2011 report.

Recommendation 7: We recommend that the Chief Information Officer implement security
mechanisms that assess the adequacy of the security configurations of third-party devices that
request access to the Broadcasting Board of Governors (BBG) network prior to granting the
requested access. Improperly configured devices should not be allowed to access the BBG
network.

2011 Status – Open; this repeat recommendation has become Recommendation 6 (Finding E) in
the FY 2011 report.

Recommendation 8: We recommend that the Chief Information Officer limit remote access
privileges to employees who have been properly authorized by user management in accordance
with the Broadcasting Board of Governors remote access policies and procedures.

2011 Status – Closed.

Recommendation 9: We recommend that the Chief Information Officer implement password
management policy and procedures that require system users to select, at a minimum, three of
the following four categories when establishing a system’s passwords: English uppercase
characters (A through Z); English lowercase characters (a through z); base 10 digits (0 through
9); or non-alphabetic characters, such as !, $, #, or %.

2011 Status – Closed.

Recommendation 10: We recommend that the Chief Information Officer develop procedures
that require individual users to establish password reset information that only the individual users
can verify when they request password reset by telephone.

2011 Status – Closed.

Recommendation 11: We recommend that the Chief Information Officer restrict the use of
guest, test, and shared user accounts to ensure user accountability.

2011 Status – Open; this repeat recommendation has become Recommendation 7 (Finding F) in
the FY 2011 report.

                                                24
                                        UNCLASSIFIED
                                        UNCLASSIFIED



Recommendation 12: We recommend that the Chief Information Officer allocate existing
resources or acquire additional resources, if needed, to develop and implement policies and
procedures for the routine performance of security assessments for all major systems and general
support systems. The results of such security assessments should be reviewed, and Plans of
Action and Milestones should be developed for the improvement of the security controls of
major systems and general support systems.

2011 Status – Open; this repeat recommendation has become Recommendation 10 (Finding G)
in the FY 2011 report.

Recommendation 13: We recommend that the Chief Information Officer record all security
incidents in the ticketing systems for centralized reporting, analysis, monitoring, and resolution.

2011 Status – Closed.

Recommendation 14: We recommend that the Chief Information Officer ensure that the
Director of Disaster Recovery and Business Continuity develop and implement contingency
planning policies and procedures; develop contingency plans for the Broadcasting Board of
Governors (BBG) infrastructure (network) and its major systems; provide contingency planning
training to personnel; perform periodic testing of BBG’s contingency plans; and make updates to
the plan based on lessons learned.

2011 Status – Open; this repeat recommendation has become Recommendation 11 (Finding H)
in the FY 2011 report.




                                                 25
                                        UNCLASSIFIED
                                          UNCLASSIFIED



       Appendix C. Broadcasting Board of Governors Response




IN'I1::RNATIONAL BROADCAS11NG BUREAU




                                                 November 2, 20 11




     Mr. Harold W. Geisel
     Deputy Inspector General
     Office of lnspec lor General
     U.S. Department of State

     Dear Mr. Geisel:

     This is in response to the e-mail from Ms. Amy Conigliaro, dated October 27, 201 1, regarding
     the Office of Inspector General's (DIG) Draft Report titled, "Evaluation o f the Broadcasting
     Board ofGovemors Information Security Program," Repon Number AUOflT. XX-XX-XXX,
     dated October 2011.

     The Broadcasting Board ofGovemors is grateful for the opportun ity to review the OIG's draft
     report . Our IT staff made a concerted effort to eOOJ)C:rnte with the team and provide an open
     forum of discussion and a willi ngness to comply wi th the team's requests for documentation.
     We appreciate the team's recognition of this effort during the FISMA review process and believe
     the report will be helpful 10 us in strengthening BBG's information security program. Our
     detai led comments on the draft. report recommendations are annotated on the enclosure.


    (b) (6)




     Enclosure: As staled




                                                                                                        


                                                     26

                                          UNCLASSIFIED
                                    UNCLASSIFIED





                                                                                         Enclos ure

                 B r oadu.diDg Board of Gove rnors (BBG) R esponse to
       Ihe Offlu   0'
                    1000 pecior G enera l's (OIG) O n-ICe of Audi t! Drafl R epo n tilled,
   "EVIlaIMIl ofth e Broad castin g Board of Governors Infonnalion S«uri ty P rogram ,"
               Repo rt Number AUDIlT-XX-XX-XXX. d ated October 2011


R uommenda tion I : We recommend that the Chief Information Officer ensure that the selected
system inventory management software tool is acquired and implemented and a process is
developed to update, not less than annuall y, the Broadcasting Board of Governors' (BBG)
system inventory when changes are made to those infonnation systems operated by or under the
control ofBBG or by third-party contractors or agencies on behalf of BBG as required by the
National Institute of Standards and Teclmology Special Publication 800-53, Revision 3.

Response: The BBG concurs. The BBG has acquired the inventory managemen t software tool
and is currently installing and configuring the tool. The CIO will oversee testing of Ihis tool and
the development o f a process to update BBG's system inventory periodically.

RerommendatlOD 2: We recommend that the Chief Information Officer complete the
development and implementation of security configuration procedures and periodically assess
compliance with the implemented procedures as required by th e National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

Res ponse: The BBG concurs. The C IO will oversee the collection and organization of any
existing security configuration procedures, will assess progress to complete the development and
implementation of addit ional procedures by March 31. 2012 and wi ll periodically access
compliance with these implemented procedures.

Reco mmendation 3: We recommend that the Chieflnfonnation Officer develop procedures to
ensure that security controls arc properly managed and maintained for all systems that access the
Broadcasting Board of Governors' network as requiud by National Institute of Standards and
Technology Special Pub licati on 800-53, Revision 3.

R es ponse: TIle BBG concurs. The CIO will oversee the development of procedures to provide
oversight such that security controls are properly managed and maintained for a ll systems that
directly access the BBG network by March 31, 20 12.

Recommendalion 4: We recommend that the Chief Infonnation Officer update the se<:urity
awareness training policy requiring all new personnel to attend initial and refresher security
awareness training and enforce consequenus of non<ompiiance for personnel who do not
successfull y complete the security awareness training, as required by the National Institule of
Standards and Technology Special Publication 800-53, Revision 3 and the Broadcasting Board
of Governor's information security policies.




                                               27

                                    UNCLASSIFIED

                                    UNCLASSIFIED





Response: The BBO concurs. The:      cia  has initiated discussions with the BBO's Office of
Human Resources (HR) to require all new personnel to attend initial or refresher security
awareness lnIini ng. In addition, the CIa will update the security awareness training policy by
December 3 1, 20 11. The C IO also will work with HR to develop and implement consequences
for pef10nnel who are non-compliant wit h the policy, whi le minimizi ng the impact on Agency
operations and the BBG mission.

Recom mend ation 5: We recommend the Chief Information Officer develop a policy requiring
responsible managers to review and update Plans of Action and Milestones (POA&M) and
assess the timeliness of corrective actions to determine whether additional resources may need to
be allocated to prevent delays as required by the Office of Management and Budget
Memorandum M-I I -33, FY 2011 Reporting Instructions/or the Federal In/ormation Security
Management Act and Agency Privacy Management, September 14,2011.

Respo nse: The BBG concurs. The CIO wi ll edit the current POA&M policy by December 3 1,
20 II , to requ ire responsible managers to review and update their respective POA&Ms
periodically. The CIO or his designee also will review these POA&M reports periodically to
determine whether or not additional resources need to be allocated.

Reco mmenda tion 6: We recommend that the Chief Information Officer im plement the process
and software tool to assess the adequacy of the security configUliltions of third-party devices that
request access to the Broadcasting Board of Governors' network and grant access only to
properl y configured devices as req uired by the National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

RHpon~e: The BBG concurs. The CIO will develop the process and initiate planning and
testing of the software tool intended to assess the adequacy of the securi ty configurations of
third-party devices thai request access (generally through a Virtual Private Network (VPNJ) 10
the BSG network and will grant aCCeSS only to those whose configu rations are deemed
sufficient, by March 31, 2012, pending allocation of sufficient funds for th is purpose.

Recommendation 7: We recommend that the Chieflnformation Officer establ ish policies and
procedures to restriclthe use of guest, test, and shared user accounts to ensure user
accountability in accordance with the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Res ponse: The BBG concurs. The C IO has made signifK:ant progress in reviewing the history
and rationale of guest, test, and shared user accounts. 11le CIO wi ll develop policies and
procedures to restrict the use of guest, test. and shared user accou nts to ensure user
accountability for access to BBG computing resources by December 31, 201 1.

Recommendation 8: We recommend thaI the Chief Information Officer establish policies and
procedures requiring system owners to notify account managers when information system users
are terminated, transferred, or information system usage or need-to-know/need·to-share changes,
in accordance with the National Institute of Standards and Technology Special Publication
800·53, Revision 3.


                                                                                                   2




                                                28

                                    UNCLASSIFIED

                                   UNCLASSIFIED





Response: The BBG concurs. The cia will develop policies and procedures requiring system
owners to notify account managers when user employment status or system access needs change
by March 31, 2012.

Recommendation 9: We recommend that the Chief Information Officer implement procedures
to monitor and review compliance with the password reset procedures to ensure that Help Desk
personnel enforce the password reset policy, which requires the requesting user to be physically
present to allow Help Desk personnel to verify the user's identity.

Response: The BBG concurs. The CIO will develop and implement procedures for monitoring
and reviewing compliance with the password reset procedures by March 31, 2012. The CIO also
will review the password reset policy and consider alternative methods for implementing the user
identification requirements.

Recommendation 10: We recommend that the ChiefInformation Officer develop and
implement policies and procedures to perform routine vulnerability assessme nts for all major
systems and general support systems as required by the National Institute of Standards and
Technology Special Publication 800-53A.

Response: The BBG concurs. The BBG has acquired a software 1001 and is currently installing
and configuring the tool. The CIO will develop policies and procedures to perform routine
vulnerability assessments with the tool for all major systems and geneml support systems by
December 31, 2011.

Recommendation 11: We recommend that the ChiefInformation Officer ensure that the
Director of Disaster Recovery and Business Continuity develop and implement contingency
planning policies and procedures, develop contingency plans for the Broadcasting Board of
Governors' (BBG) infrastructure (network) and its major systems, provide contingency planning
training to personnel who are responsible for the recovery of the network and systems, perform
periodic testing ofBBG's contingency plans, and update the plan based on lessons learned as
required by the National Institute of Standards and Technology Special Publication 800-34,
Revision I.

Response: The BBG concurs. Although the BBO's IT Directorate in the Office of Technology,
Services, and Innovation (TSI) does have data backup, restoration plans, and deep investments in
internal redu ndant archi tecture, the BBO agrees to further develop contingency plans and
increase investments in offsite systems to be used for business conti nuity. To support and lead
this effort, the CIa is planning to add a Disaster Recovery and Business Continuity Manager
position by March 31, 20 12, to focus specifically on this subject. All positions and equipment
required to meet this recommendation are subject to available funding.

Recommendation 12: We recommend that the Chief Information Officer develop and
implement a complete and comprehensive process that meets the US-CERT's requirements for
identifying, reporting, and resolving computer security incidents in a timely manner as required
by the National Institute of Standards and Technology Special Publication 800-61, Revision I
and Office of Management and Budget Memorandum M-07-16. BBG's Computer Security


                                                                                                   J




                                              29

                                   UNCLASSIFIED

                                     UNCLASSIFIED





Incident Management Policy should be revised to include clear and comprehensive guidance for
the identification, prioritization, and notification of security incidents, both internally and to the
US-CERro The security incident identificat ion and notification procedures should also
specifically address the procedures for responding to security incidents involving the breach of
personal1y identifiable infonnation whether in electronic or paper fonnat.

Response: The BBG concurs. The BBG will modify the policy, as requested, by December 31 ,
2011.




                                                                                                         4




                                                30

                                     UNCLASSIFIED

                  UNCLASSIFIED





FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs 

            and resources hurts everyone. 




         Call the Office of Inspector General 

                      HOTLINE 

                     202/647-3320 

                  or 1-800-409-9926 

        to report illegal or wasteful activities. 



               You may also write to 

             Office of Inspector General 

              U.S. Department of State 

               Post Office Box 9778 

                Arlington, VA 22219 


       Please visit our Web site at oig.state.gov 


           Cables to the Inspector General 

          should be slugged “OIG Channel” 

              to ensure confidentiality. 





                  UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

